NO.

IN THE
SUPREME COURT OF THE UNITED STATES

NEIL DUSSARD,PETITIONER
vs.
UNITED STATES OF AMERICA,RESPONDENT
PROOF OF SERVICE
I, Sevin McLaughlin, do swear and declat~e that on this date, Deceinbei• 4, 2020, as
required by the Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PA ZIPERIS and PETITION FOR WRIT OF CERTIORARI on
each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them end with first-class postage prepaid.
FZespondent: 1'he tJnited States of America
~ Kimberly .i. Ravener, Esq.
U.S. Attorney's Office — SDNY
One St. Andrew's Plaza
New Yot•k, NY 10007
l:imberlv.ravener(~Llsdoj.<~ov

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Neil Dussard
Registry #78094-054
FCI Allenwood Medium
PO F3ox 2000
White Deer, PA 17887

I declare under penalty of perjury that the foregoing is true and correct.

Executed on: December 4, 2020.
Devin McLati~hlin, Esq.
CJA Counsel for Petitioner
Langrock Sperry &Wool, LLP
PO Drawer 351
Middlebury, VT 05753-0351
~-mail: dnlclau«hlii~~r)lan~ri~ock.com
Ph:(802) 388-6356 ~ Fx:(802) 388-6149
11~~19~.1

2

